      DEPARTMENT OF HEALTH &. HUMAN SERVICES                                     Office of Inspector General


                                                                                 Washington, D.C. 20201




                                       JUN .1 7 2009
TO:            Chal"lene Frizzera
               Acting Administrator
               Centers for Medicare & Medicaid Services


FROM:
                     ~~
                oseph E. Vengrin
               Deputy Inspector General for Audit Services


SUBJECT:       Review of Place-of-Service Coding for Physician Services Processed by Medicare
               Part B Carriers During Calendar Years 2005 and 2006 (A-01-08-00528)


The attached final report provides the results of our review of place-of-service coding for
physician servicesprocessed by Medicare Part B carriers during calendar years 2005 and 2006.

To account for the increased expense that phySIcians incur by performing services in their
offices, Medicare Part B reimburses physicians at a higher rate for certain services performed in
their offices. However, when physicians perform these same services in facility settings, such as
outpatient hospitals or ambulatory surgical centers (ASC), Medicare reimburses the overhead
expenses to the facility and the physician receives a lower reimbursement rate. Physicians are
required to identify the place of service on the health insurance claim forms that they submit to
Medicare Part B carriers. The correct place-of-service code ensures that Medicaredoes not
incorrectly reimburse the physician for the overhead portion of the payment if the service was
performed in a facility setting.

T];le objective of our audit was to determine whether physicians correctly coded the office place
of service on claims submitted to and paid by Part B carriers.

Physicians did not always correctly code the office place of service on claims submitted to and
paid by Part B carriers. Physicians correctly coded the claims for 21 of the 150 services that we
sampled. However, physicians incorrectly coded the claims for 129 sampled services by using
the office place-of-service code for services that were actually performed in outpatient hospitals
or ASCs. The incorrect coding resulted in overpayments totaling $6,797.

Based on these sample results, we estimated that carriers nationwide overpaid physicians
$20.2 million for incorrectly coded services provided during the 2-year period that ended
December 31, 2006. We attribute the overpayments to internal control weaknesses at the
physician billing level and to insufficient postpayment reviews at the Medicare contractor level
to identify potentialplace-of-service coding errors.
Page 2 – Charlene Frizzera


We recommend that the Centers for Medicare & Medicaid Services (CMS) instruct its Part B
carriers to:

   •   recover the $6,797 in overpayments for the sampled services,

   •   review our information on the 857,761 nonsampled services to identify services estimated
       at $20,163,015 that were potentially billed with incorrect place-of-service codes and
       work with the physicians who provided the services to recover any overpayments,

   •   strengthen their education process and reemphasize to physicians and their billing agents
       the importance of correctly coding the place of service and the need for internal controls
       to prevent Medicare billings with incorrect place-of-service codes, and

   •   work with fiscal intermediaries and program safeguard contractors to (1) develop a data
       match that will identify physician services at high risk for place-of-service miscoding and
       (2) recover any identified overpayments.

In comments on our draft report, CMS concurred with our recommendations and described the
actions that it planned to take to implement them. CMS requested that we provide the data necessary
to recover the overpayments for the sampled services. With respect to the nonsampled services,
CMS stated that it would attempt to determine the cost-effectiveness of recovering overpayments on
a pilot basis.

We will provide CMS with the requested data on the sampled services. We will also provide CMS
with carrier-specific data, sorted by physician and facility provider numbers, to help ensure the cost-
effectiveness of its recovery activity for the nonsampled services.

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of Inspector General reports
generally are made available to the public to the extent that information in the report is not
subject to exemptions in the Act. Accordingly, this report will be posted on the Internet at
http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to call
me, or your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov.
Please refer to report number A-01-08-00528 in all correspondence.


Attachment
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 REVIEW OF PLACE-OF-SERVICE
    CODING FOR PHYSICIAN
   SERVICES PROCESSED BY
  MEDICARE PART B CARRIERS
   DURING CALENDAR YEARS
       2005 AND 2006




                    Daniel R. Levinson
                     Inspector General

                        June 2009
                      A-01-08-00528
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Medicare Part B pays for services that physicians provide to program beneficiaries. Although
physicians routinely perform many of these services in an outpatient hospital department or a
freestanding ambulatory surgical center (ASC), some of these services may also be performed in
nonfacility settings such as a physician’s office. To account for the increased overhead expense
that physicians incur by performing services in their offices, Medicare reimburses physicians at a
higher rate for certain services performed in their offices. However, when physicians perform
these same services in facility settings, such as outpatient hospitals or ASCs, Medicare
reimburses the overhead expenses to the facility and the physician receives a lower
reimbursement rate.

Physicians are required to identify the place of service on the health insurance claim forms that
they submit to Medicare Part B carriers. The correct place-of-service code ensures that Medicare
does not incorrectly reimburse the physician for the overhead portion of the payment if the
service was performed in a facility setting.

Our audit covered 857,911 office-coded physician services valued at $74,881,647 and provided
from January 1, 2005, through December 31, 2006, that matched outpatient hospital or ASC
claims for the same type of service provided to the same beneficiary on the same day.

OBJECTIVE

The objective of our audit was to determine whether physicians correctly coded the office place
of service on claims submitted to and paid by Part B carriers.

SUMMARY OF FINDING

Physicians did not always correctly code the office place of service on claims submitted to and
paid by Part B carriers. Physicians correctly coded the claims for 21 of the 150 services that we
sampled. However, physicians incorrectly coded the claims for 129 sampled services by using
the office place-of-service code for services that were actually performed in outpatient hospitals
or ASCs. The incorrect coding resulted in overpayments totaling $6,797.

Based on these sample results, we estimated that carriers nationwide overpaid physicians
$20.2 million for incorrectly coded services provided during the 2-year period that ended
December 31, 2006. We attribute the overpayments to internal control weaknesses at the
physician billing level and to insufficient postpayment reviews at the Medicare contractor level
to identify potential place-of-service coding errors.




                                               i
RECOMMENDATIONS

We recommend that the Centers for Medicare & Medicaid Services (CMS) instruct its Part B
carriers to:

   •   recover the $6,797 in overpayments for the sampled services,

   •   review our information on the 857,761 nonsampled services to identify services estimated
       at $20,163,015 that were potentially billed with incorrect place-of-service codes and
       work with the physicians who provided the services to recover any overpayments,

   •   strengthen their education process and reemphasize to physicians and their billing agents
       the importance of correctly coding the place of service and the need for internal controls
       to prevent Medicare billings with incorrect place-of-service codes, and

   •   work with fiscal intermediaries and program safeguard contractors to (1) develop a data
       match that will identify physician services at high risk for place-of-service miscoding and
       (2) recover any identified overpayments.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In comments on our draft report, CMS concurred with our recommendations and described the
actions that it planned to take to implement them. CMS requested that we provide the data necessary
to recover the overpayments for the sampled services. With respect to the nonsampled services,
CMS stated that it would attempt to determine the cost-effectiveness of recovering overpayments on
a pilot basis. CMS’s comments are included in their entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

We will provide CMS with the requested data on the sampled services. We will also provide
CMS with carrier-specific data, sorted by physician and facility provider numbers, to help ensure
the cost-effectiveness of its recovery activity for the nonsampled services. In designing its pilot,
CMS should consider that approximately 1,400 physicians and physician groups, about 1 percent
of our audit population, accounted for more than 50 percent of the claims.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                               Page

INTRODUCTION............................................................................................................. 1

          BACKGROUND .................................................................................................... 1
             Medicare Part B Payments for Physician Services ........................................ 1
             Medicare Reimbursement for Practice Expense ............................................ 1
             Medicare Contractors..................................................................................... 1
             Prior Office of Inspector General Reports ..................................................... 2

          OBJECTIVE, SCOPE, AND METHODOLOGY .................................................. 2
              Objective ........................................................................................................ 2
              Scope.............................................................................................................. 2
              Methodology .................................................................................................. 2

FINDING AND RECOMMENDATIONS...................................................................... 3

          PAYMENTS BASED ON INCORRECT PLACE OF SERVICE ......................... 4
             Medicare Requirements ................................................................................. 4
             Results of Sample .......................................................................................... 4
             Estimate of Overpayments............................................................................. 5
             Internal Control Weaknesses and Insufficient Postpayment Reviews........... 5

          RECOMMENDATIONS........................................................................................ 6

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ........... 6

          OFFICE OF INSPECTOR GENERAL RESPONSE ............................................. 6

APPENDIXES

          A – PRIOR OFFICE OF INSPECTOR GENERAL REPORTS

          B – SAMPLE DESIGN AND METHODOLOGY

          C – SAMPLE RESULTS AND ESTIMATES

          D – CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                   iii
                                               INTRODUCTION

BACKGROUND

Medicare Part B Payments for Physician Services

Medicare Part B pays for services that physicians provide to program beneficiaries. Physician
services include medical and surgical procedures, office visits, and medical consultations. These
services may be provided in facility settings, such as outpatient hospital departments and
freestanding ambulatory surgical centers (ASC), or in physician offices.

Physicians are paid for services according to the Medicare physician fee schedule. This schedule
is based on a payment system that includes three major categories of costs required to provide
physician services: practice expense, physician work, and malpractice insurance.

Medicare Reimbursement for Practice Expense

Practice expense reflects the overhead costs involved in providing a service. To account for the
increased practice expense that physicians incur by performing services in their offices,
Medicare reimburses physicians at a higher rate for certain services performed in their offices
rather than in an outpatient hospital or an ASC. Physicians are required to identify the place of
service on the health insurance claim forms that they submit to Medicare Part B carriers. The
correct place-of-service code ensures that Medicare does not incorrectly reimburse the physician
for the overhead portion of the service if the service was performed in a facility setting.

Medicare claim form instructions specifically state that each provider or practitioner is
responsible for becoming familiar with Medicare coverage and billing requirements. Some
physician offices submit their own claims to Medicare; other offices hire billing agents to submit
their claims. Physicians are responsible for any Medicare claims submitted by billing agents.

Medicare Contractors

Medicare Part B carriers, under contract with the Centers for Medicare & Medicaid Services
(CMS), process and pay claims submitted by physicians, clinical laboratories, suppliers, and
ASCs. Medicare Part A fiscal intermediaries, also under contract with CMS, process and pay
claims submitted by outpatient hospitals. 1

As authorized by the Health Insurance Portability and Accountability Act of 1996, CMS
contracts with program safeguard contractors to perform Medicare program integrity activities.
Under CMS’s Umbrella Statement of Work, these contractors conduct medical reviews, cost
report audits, data analyses, provider education, and fraud detection and prevention.




1
 Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003 requires CMS to
transfer the functions of carriers and fiscal intermediaries to Medicare administrative contractors by October 2011.


                                                          1
Prior Office of Inspector General Reports

Our previous reviews found that several carriers overpaid physicians who did not correctly
identify the place of service on their billings. (See Appendix A.) Our recommendations in those
reports called for the carriers to educate physicians regarding proper billing, recover identified
overpayments, and analyze postpayment data to detect and recover overpayments for improperly
billed claims. The carriers generally concurred with our recommendations.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of our audit was to determine whether physicians correctly coded the office place
of service on claims submitted to and paid by Part B carriers.

Scope

Our nationwide audit covered 857,911 office-coded physician services valued at $74,881,647
and provided from January 1, 2005, through December 31, 2006, that matched outpatient
hospital or ASC claims for the same type of service provided to the same beneficiary on the
same day. 2

The objective of our audit did not require an understanding or assessment of the complete
internal control structure at the carriers or the physicians’ offices. Therefore, we limited our
review of internal controls at the carriers to the payment controls in place to prevent
overpayments resulting from place-of-service billing errors. We limited our review of internal
controls at physicians’ offices to obtaining an understanding of controls related to developing
and submitting Medicare claims.

Our fieldwork consisted of contacting ASCs, outpatient hospitals, and physicians nationwide
from June through October 2008.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Medicare laws and regulations;

    •   identified physician services provided during calendar years 2005 and 2006 that had
        varying payment levels depending on the place of service;

    •   matched physician claims for services with varying payment levels that were coded as
        having been performed in a physician’s office to claims from outpatient hospitals or


2
 These services excluded services provided by First Coast Service Options, Inc., during 2005. Those services were
addressed in report number A-01-07-00518.


                                                        2
       ASCs for the same service provided to the same beneficiary on the same date and
       obtained a sampling frame of 857,911 physician services;

   •   selected a random sample of 150 paid services, stratified by the type of corresponding
       facility claim (i.e., outpatient hospital or ASC), from the sampling frame of services that
       were potentially billed with incorrect place-of-service codes (Appendix B);

   •   reviewed Common Working File and National Claims History File paid claim data for
       each sampled service to validate the payment amount and to determine the place of
       service identified on the claim;

   •   sent detailed internal control questionnaires and requests for medical and billing records
       to, and received responses from, the 144 physicians who provided the 150 sampled
       services;

   •   reviewed questionnaire responses and medical and billing records and, if necessary,
       followed up with physicians or their billing agents to request additional information to
       confirm the correct place of service, identify coding discrepancies, and identify the
       causes of incorrect coding;

   •   followed up with outpatient hospitals and ASCs, when necessary, to determine whether
       the sampled services were performed at the facilities;

   •   calculated any Medicare overpayments for the sampled services;

   •   reviewed Common Working File data to determine whether claims for the sampled
       services had subsequently been adjusted;

   •   estimated the total value of erroneous claims in the sampling frame (Appendix C); and

   •   discussed the results of our review with carrier officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATIONS

Physicians did not always correctly code the office place of service on claims submitted to and
paid by Part B carriers. Physicians correctly coded the claims for 21 of the 150 services that we
sampled. However, physicians incorrectly coded the claims for 129 sampled services by using
the office place-of-service code for services that were actually performed in outpatient hospitals
or ASCs. The incorrect coding resulted in overpayments totaling $6,797.



                                                 3
Based on these sample results, we estimated that carriers nationwide overpaid physicians
$20.2 million for incorrectly coded services provided during the 2-year period that ended
December 31, 2006. We attribute the overpayments to internal control weaknesses at the
physician billing level and to insufficient postpayment reviews at the Medicare contractor level
to identify potential place-of-service coding errors.

PAYMENTS BASED ON INCORRECT PLACE OF SERVICE

Medicare Requirements

Medicare payment for physician services is based on the lower of the actual charge or the
physician fee schedule amount. 3

For a physician to receive the higher nonfacility practice expense payment for a service, the
service must meet the requirements of 42 CFR § 414.22(b)(5)(i)(B), which, during the audit
period, 4 provided: “The higher non-facility practice expense RVUs [relative value units] apply
to services performed in a physician’s office, a patient’s home, an ASC if the physician is
performing a procedure not on the ASC approved procedures list, a nursing facility, or a facility
or institution other than a hospital or skilled nursing facility, community mental health center, or
ASC performing an ASC approved procedure.” CMS publishes a quarterly physician fee
schedule in the Federal Register showing those services that have a higher payment rate if
performed in a physician’s office.

Results of Sample

Physicians incorrectly coded the place of service for 129 of the 150 sampled services. 5 Although
all 129 services were coded as having been performed in a physician’s office, 79 of the services
were actually performed in outpatient hospital settings, and 50 were ASC-approved procedures
performed in ASCs.

Of the 129 incorrectly coded services, 9 did not result in overpayments because the physicians’
billings did not exceed the Medicare fee schedule amount for the correct facility setting. For
each of the 120 remaining services, the physicians’ actual charges exceeded the Medicare fee
schedule amount associated with the facility place-of-service code. Therefore, when those
services were billed with the incorrect office place-of-service code, the physicians were paid the
higher nonfacility practice expense payment, to which they were not entitled. As a result, the
carriers incorrectly reimbursed the physicians for the overhead portion of their services.

3
    Section 1848(a)(1) of the Social Security Act, 42 U.S.C. § 1395w-4(a)(1).
4
 Effective January 1, 2008, CMS revised 42 CFR § 414.22(b)(5)(i)(A) and (B) to provide that no facility practice
expense payment will be made to physicians for procedures that are performed in an ASC but are not on the ASC-
approved procedures list.
5
 For 21 sampled services, physicians correctly coded their offices as the place of service. Our match identified these
services as potentially miscoded because they were for beneficiaries who had two evaluation and management
procedures performed on the same day, one by a physician in the physician’s office and the other by a different
practitioner in an outpatient hospital.


                                                            4
                                      Example of Incorrect Coding

        The carrier paid a physician $443 for performing a hand surgery procedure coded
        as having been performed in his office. Our analysis showed that the physician
        actually performed this procedure in an outpatient hospital and that the fiscal
        intermediary had reimbursed the hospital for the overhead portion of the service.
        If the claim had been coded correctly, the physician would have received a
        payment of $223, which would not have included overhead costs. As a result of
        the incorrect coding, the physician was overpaid $220.


By repricing claims using the correct place-of-service code, we determined that carriers overpaid
physicians $6,797 for the 129 services that physicians had billed incorrectly.

Estimate of Overpayments

Based on these sample results, we estimated that carriers nationwide overpaid physicians
$20,169,812 for services provided in 2005 and 2006 that were billed using incorrect place-of-
service codes. 6 (See Appendix C.)

Internal Control Weaknesses and Insufficient Postpayment Reviews

Many physicians had not implemented internal controls to prevent billings with incorrect place-
of-service codes. Physicians and their billing personnel or billing agents told us that they had
coded the place of service incorrectly for one or more of the following reasons:

    •     Physicians’ billing personnel or billing agents were confused about the precise definition
          of a “physician’s office” or were simply following established practice in applying the
          office place-of-service code.

    •     Physicians’ billing agents were unaware that an incorrect place-of-service code could
          change the Medicare payment for a specific service.

    •     Personnel made isolated data entry errors.

    •     Undetected flaws in the design or implementation of some billing systems caused all
          claims to be submitted with “physician’s office” as the place of service.

Physicians and their staff used the office place-of-service code even though they knew, or should
have known, that the service was not performed in the physician’s office. Medicare claim form
instructions specifically state that each provider or practitioner who submits claims to Medicare
is responsible for becoming familiar with Medicare coverage and billing requirements.

6
 Physicians notified us that they had already voluntarily refunded $254,264 of this amount to carriers as a result of
our audit. We did not confirm these refunds.


                                                           5
In addition, Medicare carriers had not established sufficient postpayment reviews through
coordinated data matches with fiscal intermediaries and program safeguard contractors to
identify potential place-of-service coding errors. 7

RECOMMENDATIONS

We recommend that CMS instruct its Part B carriers to:

    •    recover the $6,797 in overpayments for the sampled services,

    •    review our information on the 857,761 nonsampled services to identify services estimated
         at $20,163,015 that were potentially billed with incorrect place-of-service codes and
         work with the physicians who provided the services to recover any overpayments,

    •    strengthen their education process and reemphasize to physicians and their billing agents
         the importance of correctly coding the place of service and the need for internal controls
         to prevent Medicare billings with incorrect place-of-service codes, and

    •    work with fiscal intermediaries and program safeguard contractors to (1) develop a data
         match that will identify physician services at high risk for place-of-service miscoding and
         (2) recover any identified overpayments.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In comments on our draft report, CMS concurred with our recommendations and described the
actions that it planned to take to implement them. CMS requested that we provide the data necessary
to recover the overpayments for the sampled services. With respect to the nonsampled services,
CMS stated that it would attempt to determine the cost-effectiveness of recovering overpayments on
a pilot basis. CMS’s comments are included in their entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

We will provide CMS with the requested data on the sampled services. We will also provide
CMS with carrier-specific data, sorted by physician and facility provider numbers, to help ensure
the cost-effectiveness of its recovery activity for the nonsampled services. In designing its pilot,
CMS should consider that approximately 1,400 physicians and physician groups, about 1 percent
of our audit population, accounted for more than 50 percent of the claims.




7
 Our prior place-of-service audits found that some program safeguard contractors, in coordination with carriers,
performed limited postpayment reviews.


                                                         6
APPENDIXES
                                                                       APPENDIX A


                PRIOR OFFICE OF INSPECTOR GENERAL REPORTS

          Report Title and Number                                 Issue Date

“Review of Payments Made by National Heritage Insurance
Company for Ambulatory Surgical Procedures for
Calendar Year 2001” (A-01-02-00524)                               July 23, 2003

“Review of Place of Service Coding for Physician Services -
Wisconsin Physician Services, Madison, Wisconsin”
(A-05-04-00025)                                                October 5, 2004

“Review of Place of Service Coding for Physician Services -
Trailblazer Health Enterprises, LLC, for the Period
January 1, 2001, Through December 31, 2002”
(A-06-04-00046)                                               January 21, 2005

“Review of Place of Service Coding for Physician Services”
(A-02-04-01010)                                               January 26, 2005

“Review of Place of Service Coding for Physician Services
Processed by National Heritage Insurance Company During
Calendar Years 2002 and 2003” (A-01-06-00502)                 December 7, 2006

“Review of Place-of-Service Coding for Physician Services
Processed by First Coast Service Options, Inc., During
Calendar Years 2004 and 2005” (A-01-07-00518)                      July 8, 2008
                                                                                   APPENDIX B


                          SAMPLE DESIGN AND METHODLOGY

POPULATION

The population consisted of office-coded physician services provided from January 1, 2005,
through December 31, 2006, that matched outpatient hospital or ambulatory surgical center
(ASC) claims for the same type of service provided to the same beneficiary on the same day.

SAMPLING FRAME

The sampling frame was a database of 857,911 office-coded physician services for calendar
years 2005 and 2006 that matched outpatient hospital or ASC claims for the same type of service
provided to the same beneficiary on the same day. We stratified the frame into two strata. The
first stratum consisted of 786,333 physician services that matched outpatient hospital claims, and
the second stratum consisted of 71,578 physician services that matched ASC claims.

SAMPLE UNIT

The sample unit was an office-coded line item of service billed by a physician and matched to a
line item of service billed by an outpatient hospital or ASC.

SAMPLE DESIGN

We used a stratified random sample. Stratum 1 represented physician line items of service
matched to outpatient hospital line items of service, and stratum 2 represented physician line
items of service matched to ASC line items of service.

SAMPLE SIZE

We randomly selected 150 matched line items of service: 100 from stratum 1 and 50 from
stratum 2.

SOURCE OF RANDOM NUMBERS

We generated the random numbers using the Office of Inspector General, Office of Audit
Services, statistical software.

METHOD OF SELECTING SAMPLED UNITS

We consecutively numbered the sample units in the frame from 1 to 786,333 for stratum 1 and
from 1 to 71,578 for stratum 2. After generating 100 random numbers for stratum 1 and 50 for
stratum 2, we selected the corresponding sample units.

ESTIMATION METHODOLOGY

We used the Office of Inspector General, Office of Audit Services, statistical software to
estimate the potential overpayments.
                                                                         APPENDIX C



                     SAMPLE RESULTS AND ESTIMATES

                                   Sample Results



                                                            Number of     Value of
                                Sample       Value of       Miscoded      Miscoded
  Stratum    Frame Size
                                 Size        Sample          Services     Services

Outpatient
              786,333            100            $5,636           79          $1,623
hospital

ASC
               71,578             50            14,370           50           5,174


  Total       857,911            150           $20,006         129           $6,797


                       Estimated Value of Miscoded Services
              (Limits Calculated for a 90-Percent Confidence Interval)

               Point estimate                        $20,169,812
               Lower limit                           $15,609,795
               Upper limit                           $24,729,830
APPENDIX D
  Page 1 of 3
APPENDIX D
  Page 2 of 3
APPENDIX D
  Page 3 of 3
